LISA S. BLATT
(202) 434-5050
lblatt@wc.com

June 2, 2021
BY HAND DELIVERY AND ELECTRONIC FILING
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: CVS Pharmacy, Inc., et al. v. John Doe, One, et al., No. 20-1374
Dear Mr. Harris:
I am counsel of record for petitioners CVS Pharmacy, Inc., Caremark, L.L.C., and
Caremark California Specialty Pharmacy, L.L.C. in the above-captioned matter, which is
currently before this Court on a petition for a writ of certiorari. In accordance with this Court’s
Rule 15.5, petitioners hereby waive the 14-day waiting period for distribution to the Court of the
petition and respondents’ brief in opposition.
We appreciate your assistance.
Sincerely,

Lisa S. Blatt

Cc:

Gerald S. Flanagan, Consumer Watchdog (Counsel for Respondents)

